No.

FILED
AUG 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

IN THE
SUPREME COURT OF THE UNITED STATES

fcbha foaii Pro*

oiiit

€_ — PETITIONER

(Your Name)

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

<3i$/tYT)e tmA t>f Plo/ictci
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Palisho fell
(Your Name)

(Address)

iMi &rYh, FltYidfl 33l°l1
(City, State, Zip Code)

(Phone Number)

QUESTION (S) PRESENTED
After filing case within the lower court and being dealt unfairly.
I immediately filed with the Third district court of appeal. On January 16, 2020 I received the decision from
the 3-DCA, in which the ruling was followed by the lower court decision timely filed.
After sending all correspondence in my brief showing that the filing was within the statute of limitation. The
3-DCA overlooked the recorded court documents. I then filed my case with the Supreme Court of Florida
seeking justice. On March 2, 2021., After re-submitting my brief, it was then excepted and logged into the
filing court system.
On April 5,2021.1 the Petitioner reached out to the clerk of court Miss Bernard, concerning the Respondent
not filing an answer brief. On that evening I checked the filing portal. The Supreme Court of Florida had
recorded Order- Brief None Filing Answer Brief. I waited patiently on the supreme court of Florida ruling.
On April 21,2021.1 received an email decline to except jurisdiction.
After filing and submitting supporting documents, on behalf of my case in which I have been, undergoing
since the day of the mediation. (April 7,2017) And the day case was filed back in court April 1,2019. And
the respondent not filing an answer brief with the courts, and the court declined jurisdiction. I am aware
that they can decline jurisdiction. "But" after receiving supporting documents from the petitioner, and
nothing in writing from the Respondent is clearly unjustifiable. I am not an attorney, but I know right from
wrong, and this is clearly wrong doing to anyone. I am like a parent that child has been injured. And I can't
stop until he or she is better. I am now to the mercy of the supreme court of the United States. In God we
will trust. I'm at your mercy now. I ask that you review the timeline on timely filing and all court documents.

Sincerely:

Falisha Bell

■*/=

QUESTION (S) PRESENTED
After filing case within the lower court and being dealt unfairly.
I immediately filed with the Third district court of appeal. On January 16, 2020 I received the decision from
the 3-DCA, in which the ruling was followed by the lower court decision timely filed.
After sending all correspondence in my brief showing that the filing was within the statute of limitation. The
3-DCA overlooked the recorded court documents. I then filed my case with the Supreme Court of Florida
seeking justice. On March 2, 2021., After re-submitting my brief, it was then excepted and logged into the
filing court system.
On April 5,2021.1 the Petitioner reached out to the clerk of court Miss Bernard, concerning the Respondent
not filing an answer brief. On that evening I checked the filing portal. The Supreme Court of Florida had
recorded Order- Brief None Filing Answer Brief. I waited patiently on the supreme court of Florida ruling.
On April 21,2021.1 received an email decline to except jurisdiction.
After filing and submitting supporting documents, on behalf of my case in which I have been, undergoing
since the day of the mediation. (April 7,2017) And the day case was filed back in court April 1,2019. And
the respondent not filing an answer brief with the courts, and the court declined jurisdiction. I am aware
that they can decline jurisdiction. "But" after receiving supporting documents from the petitioner, and
nothing in writing from the Respondent is clearly unjustifiable. I am not an attorney, but I know right from
wrong, and this is clearly wrong doing to anyone. I am like a parent that child has been injured. And I can't
stop until he or she is better. I am now to the mercy of the supreme court of the United States. In God we
will trust. I'm at your mercy now. I ask that you review the timeline on timely filing and all court documents.

Sincerely:

Falisha Bell

RECEIVED
SEP 2 2 2021

MsMSSMug i
/of#

rj

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
PO AH parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

a
iV-'F/tO/l O tty Veil
4W&cvai-ht'baik 3«>
,Fk(4a 33131
F111

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Affirmed See 95.11 (4)(a) Fla Stat. Whether founded on contract or tort: The period of limitation shall run
from the time the cause of action is discovered or should have been discovered. With the exercise of due
diligence "must be brought "within two years "

Rule 4-1:2 Scope or representation. The lawyer shall abide by the client's decisions, concerning the
objective of representation and all required by 1.4.

Florida Statue < 1997>, begins to run when final judgment becomes final. Settlement date April 7, 2017.
Date filed back in court we're April 1,2019.

r-Vi

STATEMENT OF THE CASE

Petitioner filing of legal malpractice April 7 ,2017. After and induced settlement offer. On April 1,2019,1
have been filing to present date, the petitioner has been experiencing partial treatment against case. And
Failure to review timely filing. According to malpractice under section 95.11 Florida state (1997) begins to
run when the final judgment becomes final. After seeking justice and filing court documents. To the
supreme court of Florida. When it was the appropriate time to rule fairly, they the (Supreme court) denied
to except jurisdiction. I the petitioner filed legal documents to the Supreme Court of Florida.
As well as attachments from the third District Court of appeal, showing the time frame was still within
statute of limitation. Based upon section 95.11 Florida state, petitioner Attorney also sent a demand email
on March 30, 2016. Making sure the petitioner was still in agreement of $300,000. Review. Juris initial brief
page 5 of 24. The petitioner attorney was never in the best interest of her client. Rule 4.1 Scope of
representation. The lawyer she'll abide by the client decisions. Concerning the objective of representation
and all required by 1.4 shall consult with client review juris initial AMD brief, page 5 of 15.

•*

REASONS FOR GRANTING THE PETITION

I come asking that you grant my petition. I have been through the entire system, I've endured so much
pain and suffering from the entire court system, from the lower court. To the Supreme Court of
Florida. After complying and providing court stamped documentation, showing my filing was within the
statute of limitation. No judge will except my case documents. The L.T. Number from the lower court, 1912043 shown on the 3DCA. December 16,2020 and January 22,2021. Was a closed case under judge Peter
Lopez, within the lower circuit court. Judge Lopez Consolidated the closed case with the new case
number. 2019-23041 after he was no longer the assigned judge. Judge Martin Zilber was thejudge.
Review (Juris initial AMD brief pages 2,8 of page 15) And from the (edda.3dca.fl courts.org docket) Dated
8/19/2020. Pages 6, 8,10,11, of page 27. Brief record on 12/16/2020. After showing of timely filed, the
3DCA ruled with the lower court judge Pedro P Echarte Jr. After filing notice of reconsideration on January
22, 2021 the 3DCA, denied request. I then filed with the supreme court of Florida. After submitting my
brief and the respondent not filing anything with the court. The supreme court of Florida rejected
jurisdiction of the case and forward petitioner to the United State supreme court of Florida.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

